Esr. 941

WILSON'! IINTING
0 NI

E-Mail Address:
briefs@wilsonepes.com

775 H Street, N.E.
Washington, D.C. 20002

Web Site:
www.wilsonepes.com

Tel (202) 789-0096
Fax (202) 842-4896

No. 19-1039
PENNEAST PIPELINE COMPANY, LLC,
Petitionero
v.
STATE OF NEW JERSEY, et al.,
Respondents.

AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on March 8, 2021, three (3) copies of the BRIEF AMICUS CURIAE OF
COLUMBIA GAS TRANSMISSION, LLC IN SUPPORT OF PETITIONER in the above-captioned
case were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
Counsel for Petitioner PennEast Pipeline
Company, LLC
GURBIR S. GREWAL
Attorney General of New Jersey
JEREMY M. FEIGENBAUM
OFFICE OF THE NEW JERSEY
ATTORNEY GENERAL
25 Market Street
Richard J. Hughes Complex
Trenton, NJ 08611
Counsel for Respondents State of New Jersey;
NJ Department of Environmental
Protection, et al.

MATTHEW LITTLETON
DONAHUE, GOLDBERG, WEAVER & LITTLETON
1008 Pennsylvania Ave SE
Washington, DC 20003
JENNIFER L. DANIS
EDWARD LLOYD
MORNINGSIDE HEIGHTS LEGAL SERVICES, INC.
Columbia Law School
435 West 116th Street
New York, NY 10027
Counsel for Respondent New Jersey
Conservation Foundation
ELIZABETH B. PRELOGAR
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

The following email addresses have also been served electronically:
cate.stetson@hoganlovells.com
paul.clement@kirkland.com
gurbir.grewal@njoag.gov
jeremy.feigenbaum@njoag.gov
matt@donahuegoldberg.com
j1d2228@columbia.edu
elloyd@law.columbia.edu
SupremeCtBriefs@USDOJ.gov

ROBYN DORSEY WILLIS
WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.
Washington, D.C. 20002
(202) 789-0096
Sworn to and subscribed before me this 8th day of March 2021.

COLIN CASEY OGAN
NOTARY PUBLIC
District of Columbia
My commission expires April 14, 2022.

:o.

I # I

